IN THE SUPREME COURT OF THE UNITED STATES

CENTER FOR BIOLOGICAL DIVERSITY, ET AL.
Petitioner
vs.

No:

19-0975

CHAD WOLF, ACTING SEC. OF HOMELAND SECURITY,
ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
March 05, 2020
cc:

See Attached List

A. JEAN SU
CENTER FOR BIOLOGICAL
DIVERSITY
1411 K STREET NW
SUITE 1300
WASHINGTON, DC 20005
ANTHONY T. ELISEUSON
ANIMAL LEGAL DEFENSE FUND
150 SOUTH WACKER DRIVE
SUITE 2400
CHICAGO, IL 60606
DEBORAH A. SIVAS
MILLS LEGAL CLINIC AT STANFORD
LAW CLINIC
CROWN QUADRANGLE
559 NATHAN ABBOTT WAY
STANFORD, CA 94305-8610
KATHERINE A. MEYER
HARVARD LAW SCHOOL ANIMAL
LAW & POLICY PROGRAM
1585 MASSACHUSETTS AVENUE
CAMBRIDGE, MA 02138
MATTHEW R. ARNOLD
EUBANKS & ASSOCIATES, LLC
1509 16TH ST. NW
WASHINGTON, DC 20036
EFREN C. OLIVARES
TEXAS CIVIL RIGHTS PROJECT
PO BOX 219
ALAMO, TX 78516
JASON C. RYLANDER
DEFENDERS OF WILDLIFE
1130 17TH ST., N.W.
WASHINGTON, DC 20036

